      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                         Washington, D.C. 20201




November 12, 2010

TO:            Thomas R. Frieden, M.D., M.P.H.
               Director
               Centers for Disease Control and Prevention


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of the Centers for Disease Control and Prevention’s Compliance With
               Appropriations Laws and Acquisition Regulations—Contractor C
               (A-02-09-02006)


The attached final report provides the results of our review of the Centers for Disease Control
and Prevention’s (CDC) compliance with appropriations laws and acquisition regulations. This
audit, which we initiated as a result of a congressional request, is one in a series of audits of
CDC’s contracting practices. It focuses on a research and development contract awarded to a
company referred to as “Contractor C.”

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities,
and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. We look forward to receiving your final management decision within
6 months. Please refer to report number A-02-09-02006 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  REVIEW OF THE CENTERS FOR
    DISEASE CONTROL AND
PREVENTION’S COMPLIANCE WITH
    APPROPRIATIONS LAWS
       AND ACQUISITION
 REGULATIONS—CONTRACTOR C




                      Daniel R. Levinson
                       Inspector General

                       November 2010
                       A-02-09-02006
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

BACKGROUND

During fiscal years 2000 through 2008, the Centers for Disease Control and Prevention (CDC)
awarded $16.8 billion in contracts to help accomplish its mission. Like other Federal agencies,
CDC is required to follow appropriations laws and the Federal Acquisition Regulation (FAR)
when acquiring services with appropriated funds.

This audit, which we initiated as a result of a congressional request, is one in a series of audits of
CDC’s contracting practices. It focuses on a 5-year research and development contract that CDC
awarded in 2002 to a scientific research company referred to in this report as “Contractor C.”
The contract was a single-award, indefinite-delivery, indefinite-quantity contract. Under the
contract, CDC awarded 67 task orders totaling $13.4 million to Contractor C to conduct health-
monitoring studies and to develop strategies for preventing infectious diseases. Our review
covered the contract and 10 task orders valued at $1.7 million.

OBJECTIVE

Our objective was to determine whether CDC’s research and development contract and selected
task orders awarded to Contractor C complied with appropriations laws and acquisition
regulations with respect to competition, inherently governmental functions, personal services,
pricing, and contract funding.

SUMMARY OF FINDING

CDC’s research and development contract and 10 sampled task orders awarded to Contractor C
complied with appropriations laws and acquisition regulations with respect to inherently
governmental functions, personal services, pricing, and contract funding. However, the contract
did not fully comply with appropriations laws and acquisition regulations with respect to
competition. Specifically, CDC awarded task orders to Contractor C that significantly exceeded
the estimated contract cost without recompeting the contract. CDC’s cumulative award of
$13.4 million exceeded the estimated contract cost by $12.1 million because CDC failed to
adhere to its procedures for periodically monitoring cumulative contract costs.

By failing to adequately monitor the cumulative costs incurred by Contractor C, CDC violated
the FAR’s requirement for full and open competition. As a result, CDC did not ensure that it
obtained information related to the prevention of infectious diseases in the most economical and
efficient manner.

RECOMMENDATION

We recommend that CDC adhere to its procedures for periodically monitoring cumulative
contract costs.




                                                  i
CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In written comments on our draft report, CDC concurred with our finding and recommendation
and described the corrective actions that it was taking. CDC’s comments are included in their
entirety as the Appendix.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              Contracting Responsibilities .............................................................................. 1
              Federal Laws and Regulations ........................................................................... 1
              Research and Development Contract Awarded to Contractor C ....................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 3
               Objective ............................................................................................................ 3
               Scope .................................................................................................................. 3
               Methodology ...................................................................................................... 3

FINDING AND RECOMMENDATION ............................................................................... 4

          COMPETITION ............................................................................................................ 4
              Federal Requirements ........................................................................................ 4
              Cumulative Contract Award in Excess of Estimated Contract Cost.................. 5

          RECOMMENDATION ................................................................................................. 5

          CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS ............ 5

APPENDIX

          CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

The mission of the Centers for Disease Control and Prevention (CDC) is to promote health and
quality of life by preventing and controlling disease, injury, and disability. To help accomplish
its mission, CDC contracts for certain services, such as research and development and medical,
construction, professional, administrative, and technical assistance services. During fiscal
years 2000 through 2008, CDC funding for contracts increased from $439 million to $3.9 billion
per year, for a total of $16.8 billion during the 9-year period.

This audit, which we initiated as a result of a congressional request, is one in a series of audits of
CDC’s contracting practices.

Contracting Responsibilities

CDC’s Procurement and Grants Office (PGO) is responsible for the award, administration, and
closeout of all CDC contracts. Within PGO, contracting officers are responsible for ensuring
effective contracting; ensuring compliance with contract terms; ensuring that contractors receive
impartial, fair, and equitable treatment; and determining the adequacy of contractor performance.

CDC’s centers, institutes, and offices (program offices) are the primary initiators of contracts.
Contracting officers delegate certain administrative duties to program office employees referred
to as “project officers.” As the contracting officers’ authorized representatives for administering
contracts and task orders, project officers are responsible for ensuring proper Government
oversight of contractors’ performance. Project officers are not empowered to make any
contractual commitments on the Government’s behalf.

CDC’s Financial Management Office is responsible for processing payments to contractors and
for maintaining records of invoices, payments, and supporting documents.

Federal Laws and Regulations

Federal agencies are required to follow appropriations laws and the Federal Acquisition
Regulation (FAR) when acquiring supplies and services with appropriated funds. Selected
requirements are summarized below.

Competition

Pursuant to FAR 6.101(a), with certain limited exceptions, contracting officers must provide for
full and open competition in soliciting offers and awarding Government contracts.

Pursuant to 41 U.S.C. § 253h(c), indefinite-delivery, indefinite-quantity (IDIQ) contracts must be
awarded, with certain limited exceptions, pursuant to full and open competition. Task orders
issued under an IDIQ contract may not exceed the scope, period, or maximum value of the
contract under which they are issued (41 U.S.C. § 253h(e)). Government Accountability Office



                                                  1
(GAO) authorities provide that significant additional work that exceeds a contract’s scope is a
separate procurement that must be separately competed (Data Transformation Corporation
(B-274629, Dec. 19, 1996); T3 Corporation (B-276535, June 27, 1997)).

FAR 52.243-2(e) states that “… the estimated cost of this contract … shall not be increased or
considered to be increased except by specific written modification of the contract indicating the
new contract estimated cost ….”

Inherently Governmental Functions

FAR 7.503(a) states that “contracts shall not be used for the performance of inherently
governmental functions.” Inherently governmental functions include determining agency policy,
such as the content and application of regulations; determining budget policy, guidance, and
strategy; and directing and controlling Federal employees.

Personal Services

FAR 37.104 prohibits agencies from awarding personal service contracts unless specifically
authorized by statute. The FAR characterizes a personal service contract as one in which an
employer-employee relationship is created between the Government and contractor personnel.
This relationship may be created by the contract terms or by subjecting contractor personnel to
relatively continuous supervision and control by agency employees during contract performance.

Fair and Reasonable Pricing

FAR 15.402(a) states that contracting officers must “[p]urchase supplies and services from
responsible sources at fair and reasonable prices.”

Contract Funding

FAR 32.702 and FAR 43.105 state that officers and employees of the Government may not
authorize obligations in excess of the funds available or in advance of appropriations unless
otherwise authorized by law. In addition, before executing any contract, the contracting officer
must obtain written assurance from the responsible fiscal authority that adequate funds are
available or must expressly condition the contract upon the availability of funds.

Research and Development Contract Awarded to Contractor C

In 2002, CDC awarded a 5-year research and development contract to a scientific research
company referred to in this report as “Contractor C.” The single-award IDIQ contract, which
was estimated to cost $1.3 million, required Contractor C to conduct health-monitoring studies
and to develop strategies for preventing infectious diseases. CDC subsequently awarded 67 task
orders totaling $13.4 million to Contractor C to conduct these studies. CDC expected to use the
studies to assist in budgetary, legislative, regulatory, and long-range planning.




                                                2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CDC’s research and development contract and selected
task orders awarded to Contractor C complied with appropriations laws and acquisition
regulations with respect to competition, inherently governmental functions, personal services,
pricing, and contract funding.

Scope

Our audit covered CDC’s research and development contract with Contractor C and 10 task
orders awarded under the contract between September 18, 2002, and July 8, 2008. The
cumulative contract award totaled $13.4 million, and the 10 task orders were valued at
$1.7 million.

We did not review CDC’s overall internal control structure. We limited our internal control
review to obtaining an understanding of CDC’s policies and procedures for awarding and
administering contracts.

We performed our fieldwork at CDC in Atlanta, Georgia, from May through July 2009.

Methodology

To accomplish our objective, we:

    •   reviewed relevant Federal laws, regulations, and guidance;

    •   gained an understanding of CDC’s policies and procedures related to contract award and
        administration;

    •   gained an understanding of the contract administration responsibilities of PGO and
        program officials;

    •   interviewed CDC officials to gain an understanding of the types of services provided by
        Contractor C;

    •   judgmentally selected 1 10 task orders awarded to Contractor C (task orders 27, 41, 42,
        43, 45, 49, 51, 61, 66, and 67) for detailed review;

    •   reviewed documentation maintained by PGO, the Financial Management Office, and
        program offices related to the contract and the 10 task orders;


1
  Our selection factors included whether the task orders were competed and whether the task orders potentially
included inherently governmental functions or personal services. We also considered the dollar value of the task
orders.


                                                         3
   •   reviewed the competitive procedures used to award the contract and the 10 task orders;

   •   reviewed contract documentation to determine whether Contractor C performed any
       inherently governmental functions or personal services; and

   •   assessed the procedures used to price and fund the contract and the 10 task orders.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

CDC’s research and development contract and 10 sampled task orders awarded to Contractor C
complied with appropriations laws and acquisition regulations with respect to inherently
governmental functions, personal services, pricing, and contract funding. However, the contract
did not fully comply with appropriations laws and acquisition regulations with respect to
competition. Specifically, CDC awarded task orders to Contractor C that significantly exceeded
the estimated contract cost without recompeting the contract. CDC’s cumulative award of
$13.4 million exceeded the estimated contract cost by $12.1 million because CDC failed to
adhere to its procedures for periodically monitoring cumulative contract costs.

COMPETITION

Federal Requirements

Pursuant to FAR 6.101(a), with certain limited exceptions, contracting officers must provide for
full and open competition in soliciting offers and awarding Government contracts.

Pursuant to 41 U.S.C. § 253h, IDIQ contracts must be awarded, with certain limited exceptions,
pursuant to full and open competition. Task orders issued under an IDIQ contract may not
exceed the scope, period, or maximum value of the contract under which they are issued (41
U.S.C. § 253h(e)). GAO authorities provide that significant additional work that exceeds a
contract’s scope is a separate procurement that must be separately competed (Data
Transformation Corporation (B-274629, Dec. 19, 1996); T3 Corporation (B-276535, June 27,
1997)).

FAR 52.243-2(e) states that “… the estimated cost of this contract … shall not be increased or
considered to be increased except by specific written modification of the contract indicating the
new contract estimated cost ….”




                                                4
Cumulative Contract Award in Excess of Estimated Contract Cost

CDC inappropriately awarded funds to Contractor C that significantly exceeded the estimated
contract cost without recompeting the contract. During the contract award process, the estimated
contract cost was set at $1.3 million, the amount of Contractor C’s bid proposal. However, CDC
subsequently issued 67 task orders totaling $13.4 million to Contractor C without making any
written modifications to increase the estimated contract cost. Therefore, the cumulative funds
awarded exceeded the estimated contract cost by $12.1 million.

According to CDC contract-monitoring procedures, the project officer was required to
periodically compare cumulative costs incurred with the estimated contract cost to determine
whether costs were reasonable and consistent with technical progress under the contract. CDC
officials stated that the project officer failed to make this comparison. The officials
acknowledged that task orders providing funds in excess of the estimated contract cost should
not have been awarded without modifying the contract.

By failing to adequately monitor the cumulative costs incurred by Contractor C, CDC violated
the FAR’s requirement for full and open competition. As a result, CDC did not ensure that it
obtained information related to the prevention of infectious diseases in the most economical and
efficient manner.

RECOMMENDATION

We recommend that CDC adhere to its procedures for periodically monitoring cumulative
contract costs.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In written comments on our draft report, CDC concurred with our finding and recommendation
and described the corrective actions that it was taking. CDC’s comments are included in their
entirety as the Appendix.




                                                5
APPENDIX
                                                                                                                  Page 1 of2


APPENDIX: CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS 



  ," 4      DEPARTMENT OF HEAlTH . HUMAN ',"VICES                                          PUDhC Health SeMC8



                                                                                           CenTers 10f 01seru;e ContrOl
                                                                                             and Prevention (CDC)
                                                                                           Manll! GA 30333


                                                                                                SEP      1 1010

         TO:               Daniel R. Levinson
                           Inspector Gcncral
                           Department of Health and Human Services
         FROM:             Thomas R. Frieden, M.D .. M.P.H.
                           Oireclor, Centers fo r Disease Control and Prevention
                           Administrator. Agency for Toxic :Substances and Disease Registry

         SUBJECT: 	       OIG Draft Report - "Review ofthe Cel1lcnjor Discose (01/lro/ alld Prel'cI/lion's
                          Compliance with Appropriations Laws alld Acquisition Regulations-Coli/facIO/,
                          C' (A-02-09-02006)


         In the Draft Report Response (A.02.09·02006), the Office of the Inspector Genera l (DIG) made
         a recommendation to the Centers lor Disease Control and Prevention (CDC). CDC's responses
         aI\'   explicated below.

         DI G Reco mme nda tion : "We recommend thai CDC adhere to its procedures fo r periodically
         monitoring cumulative contract costs."

         ene I~es p o n se: C DC concurs with the finding and recommendation as stated in the st"Ction of
         the draft report ti tled "Recommendation:'

         The finding, staled in the section titled "Cumulative Contrac t A ward in Excess of Estimated
         Contract Cost;' was that C DC should have recompeled the contract awarded to Contractor C
         ~a use funds in the amount 0($ 12.1 million were added that significantly exceeded the
         cstimated ceiling of $ 1.3 million. CDC acknowledges this oversight and agrees 1hn! ideally a
         modification should have been issued to increase the ceiling of the base contrdcL

         CDC concluded. howeve r, that the contracting staff operated under the premise of the
         Department of Health and Human Services' Acquisition Regulation (HHSAR) citation Ihal was
         included in Seclion 13 of the contract (200·2002·00776) and is provided below. The cust ceilings
         were increased on the task orders and should have been increasl'<i by modification to the contract
         aprio ri. It was an administrative oversight that a contraci modification was not processed to
         increase the ceiling on the contract before the increa",,'<i ceilings on the task orders. The enntrnet
         provision below allows for the cost ceiling increases and competition was oblained up front prior
         to contract award.

                   B.2 HHSAR 352.232+74 Consideration·+ Estimated COS! and Fixed Fcc 

                   (Apr 1984) TASK ORDER TYPE CONTRACT 

                                                                                                     Page 2 of2




Pug!; 2 - Daniel R. Levinson


        (d) The Government reserves the right to increase annllll] cost ceilings. to
        the extent that CDC's actual prevention effectiveness assessment studies
        support service needs during any contract year(s) exceed original
        contract estimates. The Contracting Officer may allol addhional funds 10
        the contract without the com;urrem;c of the ContrdC\or.
   The Procurement and Grants Office (pGO) has and will implement the following quality
   assurance actions for improved review and control of contracts administration:
       • 	 Review and update policy and guidance on source selection procedures.
       • 	 Develop and provide training on new or recently revised relevant procedures
           including but not limited to Co/Urac/ Review and Approl'u/ Thre~·hold PGD Stmu/ard
           Operating Procedure. 03-0 I (Revised 4/02/10) and the Preparing the Negotiation
           Memort/millm. PGO SOP 2010-05.
       • 	 Evaluate contract review and approval processes among the operational acquisition
           branches, the policy and oversight office, and the office of the Head Contracting
           Activity to identify areas in which business process change are needed and implement
           appropriate change.
       • 	 Sct a criteria and dollar value based system to identify procurements thaI will require
           a legal review and include in SOP 03-01 ifneeded.
   We ask that your stafTdirect any questions or comments to Mr. Michael Tropaucr, CDC's
   O[G Liaison. by telephone at (404) 639-7009. or by e·mail at iggao@cdc.gov.

   Thank you for your review of this important mailer.


                                         ~/2WThomas R. Frieden. M.D.. M.P.H.
